u

i

1

19-375 l
No.

FILED
SEP t 3 2M9
OFFICE OF THE CLERK
SUPREME COURT. U.S.

92?

g>upmnr Court of tlje United States
IN RE SUPERVISED ESTATE OF AL KATZ:
LAWRENCE T. NEWMAN
Petitioner,
v.
ROBERT W. YORK
as Personal Representative,
INTERNAL REVENUE SERVICE, and
STATE OF INDIANA
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF INDIANA
PETITION FOR A WRIT OF CERTIORARI

LAWRENCE T. NEWMAN
Pro Se
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

RECEIVED
SEP 17 2019

QUESTIONS PRESENTED
Whether the refusal of the trial court to hear
1.
Newman’s administrative expense motions violates
the Fourteenth Amendment’s Due Process Clause and
other Constitutional provisions.
Whether the Indiana Court of Appeals’ and
Indiana Supreme Court’s decisions, which denied
Newman a genuine bona fide Appeal on the merits,
violate the Fourteenth Amendment’s Due Process
Clause and other Constitutional provisions.
2.

RELATED CASES
United States Supreme Court
Case No. 19-89
Indiana Supreme Court
Case No. 49A05-1710-ES-2475
Supervised Estate of A1 Katz
Lawrence T. Newman, Appellant,
v.
Robert W. York, Appellee
Trial Court Case No. 49D13-1009-ES-040244
Date of entry of Order denying transfer:
April 12, 2019

Indiana Supreme Court
Case No. 18A-ES-01721
In re the Estate of A1 Katz, Deceased
Lawrence T. Newman, Appellant
v.
Robert W. York, Internal Revenue Service,
and State of Indiana, Appellees
Trial Court Case No. 49D13-1009-ES-040244
Date of entry of Order denying transfer:
June 18, 2019
n

TABLE OF CONTENTS
Page(s)
PETITION FOR A WRIT OF CERTIORARI 1
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS
INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT ...

13

1.
The refusal of the trial court to ..
hear Newman’s administrative expense
Motions violates the Fourteenth
Amendment’s Due Process Clause
and other Constitutional provisions.

13

2.

The Indiana Court of Appeals’ and ...
Indiana Supreme Court’s decisions, which
denied Newman a genuine bona fide
Appeal on the merits, violate the
Fourteenth Amendment’s Due Process
Clause and other Constitutional provisions.

31

CONCLUSION

42
m

INDEX TO APPENDICES
APPENDIX A: Trial Court Order dated ....
June 12, 2018

A1

APPENDIX B: Indiana Court of Appeals ....
Memorandum Decision dated
December 31, 2018

B1

APPENDIX C: Indiana Court of Appeals
Order dated March 6, 2019

Cl

APPENDIX D: Indiana Supreme Court
Order dated June 18, 2019

D1

IV

TABLE OF AUTHORITIES
Page(s)
U. S. SUPREME COURT CASES
Armstrong v. Manzo, 380 U.S. 545 (1965)....

29

Baldwin v. Hale, 68 U.S. 223.......
(1 Wall. 223, 17 L.Ed. 531) (1863)

15,26

Boddie v. Connecticut, 401 U.S. 371 (1971)

16,17,
29

Boswell’s Lessee v. Otis et al., 9 How., 350 ... 15
Carey v. Piphus, 435 U.S. 247 (1978)

29,41

Christopher v. Harbury, 536 U.S. 403
n.12 (2002)

30

Fuentes v. Shevin, 407 U. S. 67 (1972)

16,25
26,29
16

Giaccio v. State ofPennsylvania,
382 U.S. 399 (1966)
In re Murchison, 349 U.S. 133 (1955)

30

Joint Anti-Fascist Committee v. McGrath,... 29,36,
41
341 U.S. 123 (1951)
Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982)
v

30

Marshall v. Jerrico, 446 U.S. 238 (1980)

40,41

Mathews v. Eldridge, 424 U.S. 319 (1976).... 16,30,
41
Nations et al. v. Johnson et al., 24 How., 203 15
Oakley v. Aspinwall, 4 Comst., 514

15

Postal Telegraph Cable Co. v. Newport,
247 U.S. 464 (1918)

28,29

Washington v. Glucksberg, 521 U.S. 702

31

(1997)
Young v. U.S. exrel. Vuitton, 481 U.S. 787 ... 31
(1987).
STATE COURT CASES
Bojrab v. Bojrab, 810 N.E.2d 1008 (Ind. 2004) 34,35,
39
Georgos v. Jackson, 790 N.E.2d 448
(Ind. 2003)

34,35,
39

In re Guardianship ofStalker,..........
953 N.E.2d 1094 (Ind. Ct. App. 2011)

33

Kindred v. Townsend, 4 N.E.3d 793
(Ind.Ct.App. 2014)

35,39

MBNA America Bank, N.A. v. Kay, .
888 N.E.2d 288 (Ind. Ct. App. 2008)

33

vi

MicroVote General Corp. v. Ind. ...
Election Comm’n, 924 N.E.2d 184
(Ind. Ct. App. 2010)

37

Warren v. Indiana Telephone Co.,......
217 Ind. 93, 26 N.E.2d 399 (Ind. 1940)

38

CONSTITUTIONAL PROVISIONS
U.S. Const, art. IV

30

U.S. Const, art. VI.

2,14

U.S. Const, amend. I

2,30

U.S. Const, amend. V

2,30

U.S. Const, amend. XTV, Section 1

3,30

Ind. Const, art. 1, § 12

38

Ind. Const, art. VII, § 6,

32,37

COURT RULES
Indiana Trial Rule 53.1(C)

27

MISCELLANEOUS
Internal Revenue Service Legal Reference .. 24
Guide for Revenue Officers, Section 5.17.13.5

vu

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Lawrence T. Newman, respectfully
requests that this Court issue a writ of certiorari to
review the judgments of the Indiana Court of Appeals
and of the Indiana Supreme Court in a case of
multiple deprivations of basic due process rights to a
hearing, relative to the refusal of the trial court to
ever hold any hearings on Newman’s six Motions for
reimbursements/payments to him of administrative
expenses in an estate; the subsequent denial of
Newman’s Appeal thereof by the Indiana Court of
Appeals without consideration of the merits of said
Appeal; and the denial of Transfer by the Indiana
Supreme Court, resulting in the denial of Newman’s
due process rights at all levels of the Indiana
judiciary.
OPINIONS BELOW
The order of the trial court authorizing sale of
Estate real property and distribution of proceeds,
dated June 12, 2018, is set forth in Appendix A. The
order of the Indiana Court of Appeals denying
Newman’s Appeal, dated December 31, 2018, is set
forth in Appendix B. The order of the Indiana Court
of Appeals denying Newman’s Petition for Rehearing
dated March 6, 2019, is set forth in Appendix C. The
order of the Indiana Supreme Court denying transfer
dated June 18, 2019, is set forth in Appendix D.
JURISDICTION
This cause arises from the failure of the
Indiana trial court to grant any hearing(s) to
1

Lawrence Newman on six (6) Motions. The Court of
Appeals denied Newman’s Appeal on December 31,
2018, and denied Newman’s Petition for Rehearing on
March 6, 2019. The Indiana Supreme Court denied
transfer on June 18, 2019.
Accordingly, the jurisdiction of this Court is
invoked under 28 U.S.C § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
This case involves the following Constitutional
provisions, the pertinent portions of which are set
forth below:
This Constitution... shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby....
U.S. Const, art. VI.
Congress shall make no law ... abridging the freedom
of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const, amend. I.
No person shall ... be deprived of life, liberty, or
property, without due process of law ....
U.S. Const, amend. V.

2

.... No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.
U.S. Const, amend. XIV, Section 1.
STATEMENT OF THE CASE
Petitioner Lawrence Newman ("Newman") is
the husband of Dr. Beverly Newman and the son-inlaw of Dr. Newman’s father, A1 Katz, a Holocaust
Survivor and domiciliary of Indianapolis, Indiana,
since 1947. A1 Katz also owned a condominium in
Bradenton (Manatee County), Florida, where he
normally spent the winter months.
In September 2009, A1 Katz was put into an
involuntary guardianship in Manatee County,
Florida, and the Newmans immediately thereafter
traveled from their home in Indianapolis to
Bradenton to care for him. After Beverly Newman
was appointed Guardian of the Person of A1 Katz in
November 2009, the Newmans cared for him in his
Bradenton condominium for the remaining eight
months of his life.
In July 2010, at age 90, A1 Katz passed away in
Florida, and Dr. Newman opened his Estate in the
Marion County, Indiana, Probate Court, which
appointed her as Personal Representative of the A1
Katz Estate in October 2010.

3

In less than one year in guardianship, A1 Katz’s
guardians had spent hundreds of thousands of dollars
of A1 Katz’s funds, leaving him destitute of liquid
assets at the time he passed away. His Estate was
opened with approximately $400.00 in its bank
account. The Estate was chronically short of liquid
assets from its inception, and Lawrence Newman, as
the son-in-law of A1 Katz, personally paid for many of
the ongoing administrative expenses of the Estate,
including, inter alia, expenses for the upkeep of A1
Katz’s domiciliary home at 4727 North Ritter Avenue,
Indianapolis, Indiana (“Ritter Property"), including,
inter alia, utilities, insurance, maintenance, and
property taxes.
At the time he paid for Estate administrative
expenses, Newman expected for the Estate to have, in
the future, sufficient funds to reimburse him for such
necessary expenses through, inter alia, the sale of the
Ritter Property as well as through four damage
lawsuits filed by the Estate in Florida relative to A1
Katz’s guardianship; however, the lawsuits were all
abandoned by the Estate in 2015 at the instance of
successor Personal Representative and Estate
attorney Robert York shortly after his appointment.
On April 27, 2013, Newman filed his "[Second]
Verified Motion for Reimbursement of Payment of A1
Katz Estate Administrative Expenses," in the amount
of $42,284.54, seeking reimbursement of Estate
administrative expenses Newman had advanced and
paid for from his personal funds on behalf of and to
support the Estate.

4

On August 28, 2013, Newman filed his "Third
Verified Motion for Reimbursement of Payment of A1
Katz Estate Administrative Expenses" in the amount
of $2,054.11, and in the aggregate amount of
$44,338.65.
After Judge Zore, the initial judge supervising
the A1 Katz Estate, was recused for cause, the Indiana
Supreme Court appointed Judge Rosenberg as
successor judge on August 29, 2013.
On October 9, 2013, Newman filed his "Fourth
Verified Motion for Reimbursement of Payment of A1
Katz Estate Administrative Expenses" in the amount
of $1,075.48, and in the aggregate amount of
$45,414.13.
On March 19, 2014, Newman filed his "Fifth
Verified Motion for Reimbursement of Payment of A1
Katz Estate Administrative Expenses" in the amount
of $5,422.68. Accordingly as of March 19, 2014, the
aggregate amount of administrative expenses for
which Newman sought reimbursement from the
Estate totaled $50,836.81.
Newman’s
four
administrative
expense
reimbursement Motions were set for hearing on
March 19, 2014, but not heard on said date; reset for
hearing on May 2, 2014, but not heard on said date;
and the trial court adjourned said May 2, 2014,
hearing without ever resetting said hearing and
without ever holding a subsequent hearing on said
claims, as documented by the triad court’s CCS entry
on May 5, 2014:
5

Administrative Event. Per jacket entry
.... L. Newman in person,
Court
adjourns without addressing 5 motions
set for 3/19/14 .... File Stamp:
05/02/2014.
Further, the "Notice of Executive Director’s
Determination Pursuant to Trial Rule 53.1(E)" dated
June 2, 2015, relative to a Rule 53.1 motion filed by
Newman against then-Judge Rosenberg (for removal
of Judge Rosenberg under Indiana’s "Lazy Judge"
rule), ruled in pertinent part as follows:
A review of the Chronological Case
Summary (CCS) shows that Lawrence
Newman filed his fourth praecipe
seeking withdrawal of the submission of
this case on May 18, 2015, alleging that
the court failed to set a hearing for or
rule on four motions filed by him.
However, the CCS also shows that the
court commenced a hearing on Mr.
Newman’s claims on May 2, 2014, but
adjourned the hearing due to the
absence of the personal representative of
the Estate, Mr. Newman’s wife. Trial
Rule 53.1 does not dictate the time in
which a court must complete a hearing
that has been adjourned.
Critically, said adjourned hearing was never
thereafter reset, and Newman’s Estate administrative
expense reimbursement Motions were never heard or
determined by the trial court.
6

In addition to his four administrative expense
reimbursement Motions, Newman subsequently filed
on January 25, 2016, a "Verified Petition for Payment
of Estate Attorney Fees" for administrative expenses
in the amount of $52,050.00, in payment for his
attorney fees earned while representing Estate
Personal Representative Dr. Beverly Newman in the
Estate from the opening of the Estate through his
withdrawal on February 3, 2012. Said Petition for
administrative expenses was never heard or
determined by the trial court.
Newman thereafter filed on May 9, 2016, a
"Notice to Court of Transfer of Interest of
Administrative Expense Claim and Motion for
Approval and Payment of Claim" (relative to the
"Verified Motion for Reimbursement of [Property
Tax] Payment of A1 Katz Estate Administrative
Expenses" that had been filed in the Court on or
about July 8, 2015), in the amount of $1,554.20 for
payment of Estate property taxes. Said claim for
administrative expenses was never heard or
determined by the trial court.
The aggregate amount of administrative
expenses claimed by Newman in his six
administrative expense Motions, each of which claims
was never heard or determined by the trial court,
totals $104,441.01. Dr. Newman never filed a claim
for her services as Personal Representative from
2010-2015.
In January 2015, the court appointed
Indianapolis attorney Robert York as both the
successor Personal Representative and attorney for
7

the AI Katz Estate and retained him in said positions
over Newman’s objections and despite its knowledge
of York’s decade-long, intense conflict of interest with
and hostility against Lawrence Newman, who had
worked for years as an associate attorney in York’s
law firm and was fired by York after refusing York’s
demand that Newman cease his public exposure of
child abuse at the Indianapolis Jewish Community
Center. Further, York has been hired for years upon
appointment by the Indiana Supreme Court as a
hearing officer for the Court, a position for which his
compensation by the Supreme Court has been scores
of thousands of dollars.
On July 13, 2016, Judge Rosenberg and his
supervising judge both recused themselves for cause,
and the Indiana Supreme Court thereupon appointed
Judge James Joven, a legal colleague of Robert York
from the small town of Lawrence, Indiana, as
successor judge on July 20, 2016.
Although Judge Rosenberg had never heard or
determined any of Newman’s six administrative
expense Motions and the court’s own written record
conclusively documented that Newman’s Motions had
never been heard or determined, Judge Joven upon
his appointment thereafter erroneously and
repeatedly held that the court had previously denied
or dismissed Newman’s Motions during Judge
Rosenberg’s tenure. In doing so, Judge Joven never
cited to any actual court order so denying or
dismissing Newman’s Motions, notwithstanding
Newman’s repeated documentation that no such
order(s) had ever been issued at any time by the
court, notwithstanding Newman’s repeated requests
8

that Judge Joven cite the specific alleged court orders,
and notwithstanding that Judge Joven himself had
previously listed on his November 29, 2016, Order
Setting Pretrial Conference as unheard and
undetermined Newman’s Motion for administrative
expense attorney fees filed on January 25, 2016, a
claim in and of itself for more than $50,000.00.
In 2017, York attempted to consummate a sale
of the Ritter Property without consideration of
Newman’s six unheard administrative expense
Motions, thereby excluding Newman from sharing in
the proceeds of the sale of the Ritter Property, which
was the last asset of substantial value held by the
Estate. On August 4, 2017, the trial court issued its
“Order Directing Sale of Ritter Avenue Property and
Distribution of Proceeds.”
Newman thereafter filed an interlocutory
Appeal on October 22, 2017 (the "2017 Appeal"),
challenging the trial court’s order which authorized
the distribution of the proceeds of the sale of the
Ritter Property without consideration of Newman’s
six administrative expense Motions that still had
never been heard or determined by the trial court.
Said 2017 Appeal was challenged as late and untimely
by York and was thereafter dismissed with prejudice
by the Court of Appeals, before any briefs were filed,
by order of January 4, 2018, on the basis that
Newman had filed an untimely interlocutory Appeal.
Because no briefs were filed in the
interlocutory 2017 Appeal before it was dismissed for
untimeliness, the appellate court never considered or
issued any determinations on the merits of Newman’s
9

position that his Constitutional due process rights
had been violated by the trial court through its
refusal to hear Newman’s six administrative expense
Motions before ordering the distribution of the
proceeds from the sale of the Ritter Property, thereby
precluding Newman from sharing in the proceeds of
said sale.
After said 2017 Appeal was dismissed, the
Ritter Property sale was not consummated, and York
subsequently sold the property to a different buyer
under a new purchase agreement. On May 17, 2018,
York filed his Petition for Instructions Regarding Sale
of Ritter Avenue Property, informing the trial court
that a new buyer had been found for the Ritter
Property. According to York, “the sale is expected to
result in net sales proceeds to the Estate in the
approximate amount of $54,191.00.” York intended
to distribute the bulk of said proceeds to the United
States of America for unpaid federal income taxes of
A1 Katz and to the State of Indiana for unpaid state
income taxes of A1 Katz (which taxes were unpaid
because A1 Katz’s Florida guardian of the property
had refused to pay), while making no distributions to
Newman.
On May 31, 2018, Newman filed his “Verified
Response to Petition for Instructions Regarding
Ritter Avenue Property and Verified Petition for
Payment of Administrative Expenses,” in which he
stated in pertinent part:
Lawrence Newman submits to this
Court that any distributions to the
United States of America and to the
10

State of Indiana for their respective tax
claims without payment of Lawrence
Newman’s
administrative
expense
claims will be a violation of probate law
and of Lawrence Newman’s due process
rights under the United States
Constitution
and
the
Indiana
Constitution, as well as a violation of
Lawrence Newman’s rights of access to
the courts guaranteed by the Indiana
Constitution....
As
Lawrence
Newman
further
repeatedly notified this Court and as he
does so herein, it is necessary that this
Court hear and determine Lawrence
Newman’s six (6) administrative expense
claims prior to any distribution of the
sale proceeds of the Ritter Property in
order to facilitate the compromise of the
IRS’s tax lien on the Ritter Property in
accordance with the IRS policy
referenced above and to subordinate the
State of Indiana’s tax lien to his
administrative expense claims.
Lawrence Newman submits to this
Court that his federal and state
Constitutional due process rights and his
rights to access to the courts guaranteed
by the Indiana Constitution compel:
(1) that Lawrence Newman’s six
administrative expense claims be heard
by this Court and paid to Lawrence
Newman in the distribution of the
11

anticipated proceeds of the sale of the
Estate’s Ritter Property; and (2) that
Lawrence Newman be given the
reasonable opportunity to obtain a
compromise from the Internal Revenue
Service of its tax claim in accordance
with the Internal Revenue Service’s
written policy to compromise tax claims
in an Estate in favor of administrative
expense claims.
On June 12, 2018, the trial court issued its
Agreed Order of Instructions as to Sale of Ritter
Avenue Property, in which order the trial court set
forth the distributions to be made from the proceeds
of the sale of the Ritter Property to the United States
of America and to the State of Indiana relative to
their tax claims, with any remaining amount of said
proceeds to be paid to the Estate. Said order did not
mention Newman or provide for any payment to
Newman from the Ritter Property sales proceeds for
his administrative expense claims.
Newman appealed said order to the Indiana
Court of Appeals on July 12, 2018, but the court
denied Newman’s Appeal on the basis that its order
dismissing "with prejudice" Newman’s 2017 Appeal
for untimeliness, prior to the filing of any briefs or
arguments on the merits, was nonetheless a judgment
on the merits of the prior Appeal and thus was res
judicata as to Newman’s subsequent 2018 Appeal,
ruling:.
As we dismissed Newman’s [prior 2017]
appeal with prejudice, we do not disturb
12

the trial court’s finding that it had
for
claims
denied
Newman’s
administrative expenses, and this issue
is foreclosed for our review.
In addition to denying his Appeal, the Court of
Appeals assessed appellate attorney fees against
Newman "[i]n light of Newman’s appellate briefs and
arguments," thus further penalizing Newman for
seeking his basic Constitutional rights to due process
by having his administrative expense Motions heard
by the Indiana court.
On January 29, 2019, Newman filed a Motion
for Rehearing that was denied on March 6, 2019. He
filed a Petition To Transfer to the Indiana Supreme
Court on April 5, 2019, challenging the actions of both
the trial court and of the Court of Appeals in denying
Newman Constitutional due process of law, which
Petition To Transfer was also denied on June 18,
2019.
As a result of the trial court’s aforesaid orders
and the appellate court’s decision not to consider the
issue on the merits, Newman did not receive any
payment from the proceeds of the sale of the Estate’s
Ritter Property, and his six administrative expense
Motions remain unheard, undecided, and unpaid.
REASONS FOR GRANTING THE WRIT
The refusal of the trial court to hear
1.
Newman’s administrative expense Motions violates
the Fourteenth Amendment’s Due Process Clause
and other Constitutional provisions.
13

1

This case concerns a first impression issue of
total deprivation of due process by the refusal of a
trial court to ever hold a hearing on issues of
substantial property rights, thus depriving the
litigant, Lawrence Newman, of both his due process
rights and his property rights guaranteed to him
under the United States Constitution.
While this Court has considered many cases of
due process considerations dealing with issues of
insufficiency of notice, timing of hearings, and
substance of hearings, this case presents the unique
circumstance where no hearing whatsoever was
granted to Newman on any of his six administrative
expense Motions, thus denying him any opportunity
to present his case on the merits in a court of law, an
egregious
deprivation
of
the
fundamental
Constitutional right to due process right enacted in
the Bill of Rights over two centuries ago.
In this respect, the United States Constitution
is applicable to the courts of the several states,
including the state courts of Indiana:
This Constitution, and the Laws of the
United States which shall be made in
Pursuance thereof; ... shall be the
supreme Law of the Land; and the
Judges in every State shall be bound
thereby, any Thing in the Constitution
or Laws of any State to the Contrary
notwithstanding.
U.S. Const, art. 6.
14

Over 150 years ago, even prior to the
enactment of the Fourteenth Amendment, in Baldwin
v. Hale, 68 U.S. 223 (1 Wall. 223, 17 L.Ed. 531)
(1863), this Court clearly recognized the right of a
litigant in American courts to have his case actually
heard, as established in cases dating back to 1850:
Parties whose rights are to be affected
are entitled to be heard; and in order
that they may enjoy that right they must
first be notified. Common justice
requires that no man shall be
condemned in his person or property
without notice and an opportunity to
make his defence. Nations et al. v.
Johnson et al., 24 How., 203; Boswell’s
Lessee v. Otis et al., 9 How., 350; Oakley
v. Aspinwall, 4 Comst., 514
With the amounts at issue totaling over
$104,000.00
relative
to Newman’s
unheard
administrative
expense
reimbursement/payment
Motions, Newman has substantial property rights in
his claims against the assets of the Al Katz Estate,
which property rights were disregarded by the trial
court; without being afforded any hearings on his
Motions, Newman was unable to assert his property
rights for reimbursement and/or payment from Estate
assets.
The Fourteenth Amendment’s protection of
"property" has never been interpreted to safeguard
only the rights of undisputed ownership. Rather, it
has been read broadly to extend protection to "any

15

property
interest."
significant
Connecticut, 401 U.S. 371,379 (1971).

Boddie

v.

"It is enough to invoke the procedural
safeguards of the Fourteenth Amendment that a
significant property interest is at stake, whatever the
ultimate outcome of a hearing. ..." Fuentes v.
Shevin, 407 U. S. 67,87 (1972).
Procedural due process imposes constraints on
governmental decisions which deprive individuals of
"liberty" or "property" interests within the meaning of
the Due Process Clause of the Fifth or Fourteenth
Amendment. Mathews v. Eldridge, 424 U.S. 319
(1976). “[S]ome form of hearing is required before an
individual is finally deprived of a property [or liberty]
interest.” Id., 424 U.S. at 333.
Newman has been deprived by the state of
significant property interests without any form of
hearing, in violation of Constitutional law.
"Both liberty and property are specifically
protected by the Fourteenth Amendment against any
state deprivation which does not meet the standards
of due process ...." Giaccio v. State of Pennsylvania,
382 U.S. 399 (1966).
Mindful of his Constitutional rights to a
hearing, for a period of over five years, Newman
actively asserted his due process rights to a hearing,
taking repeated unsuccessful actions in both the trial
and appellate courts to obtain a hearing on his
administrative expense Motions.
16

In this respect, "Due process has been
interpreted by this Court as preventing the states
from denying litigants use of established adjudicatory
procedures, when such an action would be the
equivalent of denying them an opportunity to be
heard upon their claimed right[s].” Boddie v.
Connecticut, 401 U.S. 371,380 (1971).
On April 27, 2013, Newman filed his (Second)
Motion for Reimbursement of Payment of A1 Katz
Estate Administrative Expenses, requesting an
immediate hearing thereon and advising the court
that "time is of the essence." On June 5, 2013,
Newman filed a Lazy Judge motion seeking removal
of the initial trial court judge, Judge Zore, for failure
to timely hear Newman’s April 27, 2013, Motion for
reimbursement of Estate administrative expenses.
Judge Zore was removed, and Judge Louis Rosenberg
was appointed as Special Judge on August 29, 2013.
On August 28, 2013, Newman filed his Third
Verified Motion for Reimbursement of Payment of A1
Katz Estate Administrative Expenses, requesting an
immediate hearing thereon and advising the court
that "time is of the essence," and on October 9, 2013,
Newman filed his Fourth Verified Motion for
Reimbursement of Payment of A1 Katz Estate
Administrative Expenses, again requesting an
immediate hearing thereon and again advising the
court that "time is of the essence."
On October 10, 2013, Judge Rosenberg held a
status hearing at which he was informed that
Newman’s Motions for administrative expense
reimbursements needed to be heard by the court.
17

On March 19, 2014, Newman filed his "Fifth
Verified Motion for Reimbursement of Payment of A1
Katz Estate Administrative Expenses," once again
requesting an immediate hearing thereon and again
advising the court that "time is of the essence."
Also on March 19, 2014, Judge Rosenberg held
a hearing at which he had scheduled Newman’s
Although
reimbursement Motions to be heard.
Newman requested to participate telephonically,
Judge Rosenberg compelled Newman to be personally
present at said hearing, requiring Newman to fly from
Florida to Indianapolis for the hearing, at significant
personal expense of time and money. At hearing,
despite Newman’s mandated presence, Judge
Rosenberg declined to hear Newman’s administrative
expense Motions.
Judge Rosenberg thereafter set a hearing on
Newman’s administrative expense reimbursement
Motions on May 2, 2014, again compelling Newman to
be personally present. Again Newman flew from
Florida to Indianapolis at significant personal expense
of time and money, and again Judge Rosenberg
declined to hear Newman’s Motions, instead
adjourning the hearing, and stating:
... I’m going to delay ruling on your — on
your five (5) (sic) requests for
reimbursement.
On February 10, 2015, Newman filed a "Lazy
Judge" Motion against Judge Rosenberg, stating in
pertinent part:
18

As of February 10, 2015, 654 days since
the filing of his Second Motion for
Reimbursement, and 328 days since the
filing of his Fifth Motion for
Reimbursement, the Judge herein has
failed to set Lawrence T. Newman’s four
Motions for Reimbursement for hearing.
nor has Judge Rosenberg ruled on said
four Motions for Reimbursement.
On May 6, 2015, Newman filed his "Response
to Personal Representative’s Report Regarding
Claims Filed by Beverly and Lawrence Newman" in
which Newman stated to the trial court in pertinent
part:
Further, as Lawrence Newman has
advised this Court multiple times in
filing his successive subject Motions,
inter alia:
Time is of the essence with respect to
the granting of the Order sought herein
since A1 Katz’s Indiana house is in the
process of being sold and the award of
Administrative Expenses to Lawrence
Newman is needed for purposes of
compromising the federal income tax
debt secured bv a tax lien placed upon A1
Katz’s Indiana house by the Internal
Revenue Service for A1 Katz’s unpaid
federal income taxes for the years 2007.
2008. 2009. and 2010. in order to
conclude the sale of said house. Said
19

debt was not paid by A1 Katz’s Guardian
of his Florida property ....
Accordingly,
this
Court
should
immediately and expeditiously grant
Lawrence Newman’s Verified Motions
for Reimbursement in full without
hearing.
On May 25, 2015, Newman filed another "Lazy
Judge" motion against Judge Rosenberg, stating in
pertinent part:
It has now been over two years that the
Court has failed to hear Lawrence
Newman’s (Second) Verified Motion for
Reimbursement of Payment of A1 Katz
Estate Administrative Expenses and well
over one year that the Court has failed
to hear Lawrence Newman’s Fifth
Verified Motion for Reimbursement of
Payment
of
A1
Katz
Estate
Administrative Expenses, all in violation
of Rule 53.1, denying Lawrence Newman
his due process rights as a creditor of the
Estate of A1 Katz.
On January 25, 2016, Newman filed his
Verified Petition for Payment of Estate Attorney
Fees, stating in pertinent part:
Petitioner [Newman] has personally
appeared before this Court on March 19,
2014, and May 2, 2014, relative to its
approval of Petitioner’s four Verified
20

Motions for Reimbursement of Payment
of AI Katz Estate Administrative
Expenses; but none of said Petitions has
ever been heard.
Pursuant to I.C. 29-1-10-13, Petitioner
requests that this Court immediately
approve the within Petition for attorney
fees and approve the Petitioner’s aforereferenced
Verified
Motions
for
Reimbursement.
On April 7, 2016, Newman filed his Verified
Motion for Disqualification of Judge Rosenberg for
Cause, stating in pertinent part:
[T]he essential pivotal question of the
removal of Judge Rosenberg is whether
an “average person on the street” would
question the impartiality of Judge
Rosenberg if he refuses to remove
himself in a case in which he, inter alia:
has refused to hear any of Lawrence
Newman’s four outstanding Motions for
reimbursement of Estate expenses for
two to three years;....
On July 1, 2016, Newman filed his Motion To
Appear at July 19, 2016, Hearing by Telephone, in
which he stated in pertinent part:
Lawrence Newman has twice flown from
Florida to Indianapolis for hearings on
March 19, 2014, and May 2, 2014, in this
cause on his own motions for
21

reimbursement of Estate administrative
expenses at great personal expense in
terms of time expended, worktime lost,
and significant money spent for travel,
which motions were specifically set by
this Court for hearing on said dates.
Notwithstanding this Court’s setting of
Lawrence Newman’s motions and his
personal appearance at said hearings,
this Court decided during said hearings
not to hear Lawrence Newman’s
motions, and, over two years later, said
motions have never been heard by this
Court .... Lawrence Newman’s motions
for
reimbursement
of
Estate
administrative expenses are not amongst
the motions specifically listed on this
Court’s subject Order Setting Hearing
on All Pending Matters
On July 11, 2016, Newman filed his Verified
Motion for Disqualification of Judge Rosenberg for
Cause, in which he stated in pertinent part:
In his Order Setting Hearing on All
Pending Matters issued on May 27,
2016, Judge Rosenberg enumerated
certain pending motions he intends to
hear at the hearing scheduled on July
Lawrence Newman’s four
19, 2016.
unheard Motions for Reimbursement of
Estate Administrative Expenses are not
Order,
enumerated
m
said
notwithstanding the fact that Lawrence
Newman has made numerous filings
22

over the past two years seeking to have
said Motions heard by Judge Rosenberg.
Consequent to Newman’s Motion for
Disqualification, Judge Rosenberg and his supervising
judge recused themselves on July 13, 2016, and Judge
Joven shortly thereafter was appointed.
In his March 17, 2017, Verified Motion for
Disqualification of Judge Joven for Cause, Newman
stated in pertinent part:
...for the third time in this cause,
Lawrence Newman was required by this
Court to travel from Florida to
Indianapolis at great personal expense in
time, lost work, and costs to appear in
person at a hearing for which his open
and unheard Motions had been
specifically set by this Court to be heard
and/or scheduled for future hearing, but
his subject Motions were, in fact, not
heard and/or scheduled....
On July 10, 2017, Newman filed his Motion To
Vacate Hearing on Sale of Ritter Property, in which
he stated in pertinent part (emphasis added):
Lawrence T. Newman’s due process
rights will be violated by a sale of the
Ritter property at this time because
Lawrence T. Newman has statutory
priority
rights
in
his
multiple
administrative expense claims over the
tax claims of the Internal Revenue
23

Service and of the State of Indiana,
which priorities Lawrence T. Newman
has been prevented and precluded from
asserting because this Court has
intentionally failed and refused to hear
and determine Lawrence T. Newman’s
multiple outstanding administrative
expense claims....
[F]ederal law regarding federal income
tax claims also recognizes the priority of
administrative expense claims over
federal income tax claims as follows from
the Internal Revenue Service Legal
Reference Guide for Revenue Officers,
Section 5.17.13.5: "... courts have held
that certain classes of claim can be paid
before the tax debt. These excepted
classes include administrative expenses.”
Additionally, years ago Lawrence T.
Newman was advised that the Internal
Revenue Service would recognize the
priority of administrative expense claims
over the IRS’s tax claims in the Estate.
On July 14, 2017, Newman filed his Motion for
Certification of Interlocutory Order for Immediate
Appeal, in which he stated:
The issues to be addressed in the
interlocutory appeal are this Court’s
Order Setting Hearing on Petition for
Hearing Regarding Sale of Ritter
Property dated June 27, 2017, without
this Court having first scheduled, heard,
24

and determined Lawrence T. Newman’s
six (6) Motions for payment of
administrative expenses, one Motion
being unheard for well over four years....
The court denied Newman’s Motion; held the
scheduled hearing on the sale of the Ritter Property;
the Ritter Property was thereafter sold by the Estate;
and most of the proceeds therefrom were distributed
by the Estate to the Internal Revenue Service and to
the Indiana taxing authorities. None of the proceeds
from the Ritter Property sale was distributed to
Newman.
Newman thereafter appealed the order of sale,
but the Court of Appeals denied his Appeal without
consideration on the merits of the issue of the refusal
of the trial court to hold a hearing on Newman’s
administrative expense Motions, instead sanctioning
Newman for having brought the Appeal with an order
to pay York appellate attorney fees, without stating
the required factual and legal grounds for imposing
its appellate attorney fee sanction.
To date, the trial court has never heard or
determined any of Newman’s subject expense
Motions, and the Estate has never made any
payments to Newman on said claims. The trial
court’s actions produce a chilling effect on probate
attorneys and devastating effects on public trust and
confidence in the American judiciaiy.
In Fuentes v. Shevin, 407 U.S. 67 (1972), this
Court held (emphasis added):
25

For more than a century, the central
meaning of procedural due process has
been clear: "Parties whose rights are to
be affected are entitled to be
heard." Baldwin v. Hale, 1 Wall. 223,233.
....the
prohibition
against
the
deprivation of property without due
process of law reflects the high value,
embedded in our constitutional and
political history, that we place on a
person’s right to enjoy what is his, free
of governmental interference.
....For when a person has an opportunity
to speak up in his own defense, and
when the State must listen to what he
has to say, substantively unfair and
simply
mistaken
deprivations
of
property interests can be prevented.....
Indiana’s judicial system from bottom to top
has forfeited Newman’s "right to enjoy what is his,
free of governmental interference" because the State
has refused to give him "an opportunity to speak up in
his own defense...[and to] listen to what he has to say"
order
to
prevent
"substantively
in
unfair....deprivations of
[Newman’s]
property
interests...."
Indeed, as documented above, the initial judge
(Judge Zore) was removed because he would not
timely hear Newman’s first subject administrative
expense reimbursement Motion; therefore, it is
indisputable that Judge Zore did not hear any of
26

Newman’s subject Motions. Newman’s successive five
additional administrative expense Motions were all
filed while Judge Rosenberg was in charge of the A1
Katz Estate proceeding, but verifiably never heard by
Judge Rosenberg; yet, Judge Joven erroneously
had
predecessor
a
judge
insisted
that
denied/dismissed Newman’s administrative expense
Motions without ever citing to any actual court
order(s) so denying/dismissing Newman’s Motions.
Newman repeatedly requested that Judge Joven
identify any such alleged court orders, hearing dates,
transcripts, or statutorily-required recordings, but
Judge Joven refused to do so.
In this respect, Indiana Trial Rule 53.1(C)
provides that “a court is deemed to have set a motion
for hearing on the date the setting is noted in the
Chronological Case Summary, and to have ruled on
the date the ruling is noted in the Chronological Case
Summary.” The Katz Estate CCS establishes that no
hearing on Newman’s administrative expense
Motions was ever conducted by the trial court: but
Judge Joven repeatedly erroneously ruled otherwise,
consequently repeatedly denying Newman his
Constitutional due process rights.
The trial court repeatedly erroneously stated in
various orders that Newman’s administrative expense
claims have either been denied or dismissed; however,
in none of said statements did the trial court ever
identify any alleged: (1) hearing date(s), (2) date(s) of
order(s), (3) specific order(s) of the court upon which
its erroneous statement rests, or (4) transcript
excerpts from any alleged hearings on the matters of
administrative expense payments.
27

For example, in its Order Directing Sale of
Ritter Avenue Property and Distribution of Proceeds
issued on August 4, 2017, the trial court stated:
Lawrence [Newman] had also previously
asserted (and continues to assert) claims
against the Estate totaling more than
$50,000 purportedly expended on behalf
of the Estate ....
The Court has repeatedly denied
Lawrence’s claims for administrative
expenses. Time and again, Lawrence
has (unsuccessfully) attempted to have
the
Court
recognize
that
his
administrative claims were still in
existence. During the July 21, 2017,
hearing, the Court restated from the
bench that the Court had long ago
denied Lawrence’s purported claims
against the Estate.
The trial court’s repeated erroneous rulings,
made contrary to the record, have served to deprive
Newman of his most basic Constitutional rights to
due process in the form of a hearing on his legal
grievances involving substantial property rights. This
Court has repeatedly and consistently ruled that the
right to a meaningful hearing is amongst the most
basic of Constitutional due process rights.
“It is a violation of due process for a state to
enforce a judgment against a party to a proceeding
without having given him an opportunity to be heard
28

sometime before final judgment is entered." Postal
Telegraph Cable Co. v. Newport, 247 U.S. 464,476
(1918).
“,..[T]he opportunity to be heard must be
granted at a meaningful time and in a meaningful
manner.” Armstrong v. Manzo, 380 U.S. 545,552
(1965).
“[A] purpose of procedural due process is to
convey to the individual a feeling that the government
has dealt with him fairly, as well as to minimize the
risk of mistaken deprivations of protected interests.”
Carey v. Piphus, 435 U.S. 247 (1978).
“Because the right to procedural due process is
’absolute’ in the sense that it does not depend upon
the merits of a claimant’s substantive assertions, and
because of the importance to organized society that
procedural due process be observed, see Boddie v.
Connecticut, 401 U. S. 371 (1971); Anti-Fascist
Committee v. McGrath, 341 U.S. at 171-172
(Frankfurter, J., concurring), we believe that the
denied of procedural due process should be actionable
for nominal damages without proof of actual injury.”
Carey v. Piphus, 435 U.S. 247 (1978).
“This right is a basic aspect of the duty of
government to follow a fair process of decision making
when it acts to deprive a person of his possessions.
The purpose of this requirement is not only to ensure
abstract fair play to the individual. Its purpose, more
particularly, is to protect his use and possession of
property from arbitrary encroachment . . . .” Puentes
v. Shevin, 407 U.S. 67,80-81 (1972).
29

Indeed, Newman’s property deprivations are
"arbitrary encroachment[s]" by Indiana’s judicial
system from bottom to top, reflecting bias against
Newman for his outspoken public opposition to child
abuse at the Indianapolis Jewish Community Center,
which has long-time ties to the appellate courts and to
Robert York, hearing officer for the Indiana Supreme
Court.
Accordingly, the failure of the trial court to
afford Newman the most rudimentary aspects of due
process is a direct affront to the basic characteristics
of due process long established by this Court. "Due
process guarantees a “fair hearing in a fair tribunal.”
In re Murchison, 349 U.S. 133,136 (1955). Due
Process requires “the opportunity to be heard at a
meaningful time and in a meaningful manner.”
Mathews v. Eldridge, 424 U.S. 319,333 (1976). The
"Due Process Clause grants the aggrieved party the
opportunity to present his case and have its merits
fairly judged”. Logan v. Zimmerman Brush Co., 455
U.S. 422, 433 (1982).
Due process rights are considered as so
fundamental that they are guaranteed in multiple
See
clauses in the United States Constitution.
Christopher v. Harbury, 536 U.S. 403,415 n.12 (2002)
(holding the right to be “grounded in the Article IV
Privileges and Immunities Clause, the First
Amendment Petition Clause, the First Amendment
Petition Clause, the Fifth Amendment Due Process
Clause, and the Fourteenth Amendment Equal
Protection and Due Process Clauses.”). See also id. at
415 (access to the courts is a “fundamental right”
30

that is a “separate and distinct right to seek judicial
relief for some wrong.”).
Due process rights are the type
“fundamental rights” that are both “deeply rooted
this Nation’s history and tradition” and “implicit
the concept of ordered liberty.”
Washington
Glucksberg, 521 U.S. 702,720-21 (1997).

of
in
in
v.

This Court has stated that “some errors are so
fundamental and pervasive that they require reversal
without regard to the facts and circumstances of the
case.” Young v. U.S. ex rel. Vuitton, 481 U.S. 787,810
(1987). An error is fundamental if it undermines
confidence in the proceeding. Id., at 812-813.
In sum, the failure of the trial court to even
hold any hearing(s) on Newman’s administrative
expense Motions and the consequent unconstitutional
deprivation of Newman’s property rights are such
fundamental errors that this Court should grant
certiorari and reverse the decision of the trial court.
The "fundamental and pervasive" errors in this case
undermine [public] confidence in the proceeding" and
in Indiana’s judicial credibility with adverse
ramifications to public trust in American
jurisprudence.
2.
The Indiana Court of Appeals’ and Indiana
Supreme Court’s decisions, which denied Newman a
genuine bona fide Appeal on the merits, violate the
Fourteenth Amendment’s Due Process Clause and
other Constitutional provisions.

31

In addition to the trial court’s violations of
Newman’s due process rights, as discussed above, the
Indiana Court of Appeals also violated Newman’s
Constitutional due process rights by denying Newman
his right to a substantive Appeal on the merits
regarding the issue of the trial court’s refusal to ever
hold a hearing on any of Newman’s six administrative
expense Motions. Subsequently, upon Newman’s
Petition To Transfer to the Indiana Supreme Court,
the Indiana Supreme Court further violated
Newman’s Constitutional due process rights by
refusing to grant transfer, thus denying Newman his
right to a substantive Appeal on the merits of the
issue of the trial court’s refusal to ever hold a hearing
for years on Newman’s administrative expense
Motions.
Newman was never provided a substantive
Appeal by the Court of Appeals; rather, by its various
orders, the Court of Appeals denied Newman his right
to appeal (a Constitutional right under the Indiana
Constitution, Ind. Const, art. VII, § 6, under which
there is an "absolute right to one appeal") by way of
tortuous legal reasoning intended to give the illusion
of appellate rights met, while piggybacking one
wrongful appellate decision - namely dismissal with
prejudice - upon another.
In its subject December 31, 2018, order denying
Newman’s instant Appeal, the Indiana Court of
Appeals ruled in toto relative to the issue of the trial
court’s violations of Newman’s due process rights:
With respect to Newman’s argument
that the trial court erred in determining
32

that his administrative claims were
dismissed or denied, Newman cites the
court’s August 4, 2017, order in which
the trial court stated that it had
repeatedly denied Newman’s claims for
administrative expenses. Newman also
cites the trial court’s August 28, 2017,
order in which the court mentioned it
had previously dismissed his claims.
However, Newman already sought an
interlocutory appeal of these orders
under Cause No. 2475 and the appeal
was dismissed with prejudice. “It is
generally recognized that a dismissal
with prejudice is a dismissal on the
merits.” In re Guardianship of Stalker,
953 N.E.2d 1094, 1102 (Ind. Ct. App.
2011) (citing MBNA America Bank, N.A.
v. Kay, 888 N.E.2d 288, 292 (Ind. Ct.
App. 2008)). As such it is conclusive of
the rights of the parties and res judicata
as to the questions which might have
been litigated. Id. As we dismissed
Newman’s appeal with prejudice, we do
not disturb the trial court’s finding that
it had denied Newman’s claims for
administrative expenses, and this issue
is foreclosed for our review.
The Court of Appeals’ dismissal of Newman’s
interlocutory 2017 Appeal "with prejudice" based upon
a belated interlocutory filing, did not comply with law,
because, as an interlocutory Appeal in a probate
proceeding, it could have been timely appealed by
Newman at the conclusion of the probate proceeding,
33

as determined by the Indiana Supreme Court, "A
claimed error in an interlocutory order is not waived
for failure to take an interlocutory appeal but may be
raised on appeal from the final judgment." Bojrab v.
Bojrab, 810 N.E.2d 1008 (Ind. 2004), citing Georgos v.
Jackson, 790 N.E.2d 448 (Ind. 2003)
Although the Court of Appeals characterized its
dismissal of Newman’s 2017 Appeal as “a dismissal on
the merits” by invoking a “generally recognized” rule
that “a dismissal with prejudice is a dismissal on the
merits,” the record clearly establishes that this
characterization is erroneous because: (1) the merits
of said 2017 Appeal were never even considered by the
Court of Appeals, because it was dismissed as
untimely before Newman had even filed his initial
brief; and (2) under Indiana law, even if Newman had
the legal right to an immediate interlocutory Appeal,
he was not required to take an interlocutory Appeal,
but could wait until the conclusion of the case to file
his Appeal. Accordingly, any "untimely" interlocutory
Appeal would not affect Newman’s alternate right to
Appeal the matter at the conclusion of the case.
Clearly, any "general rule" could not apply to
Newman’s case because the merits of his 2017 Appeal
had unquestionably never actually been determined
at any time, and the appellate court’s designation of
its dismissal "with prejudice" cannot change this fact.
Under Indiana law, even though Newman’s
2017 Appeal may have been filed too late to perfect an
interlocutory Appeal, Newman still retained the right
to file an Appeal at the conclusion of the case; thus,
the Court of Appeals’ dismissal of the time-barred
interlocutory Appeal was not only in error, it served
34

to deny Newman his due process rights, and it was
used to piggyback denial of Newman’s 2018 Appeal.
In Kindred v. Townsend, 4 N.E.3d 793
(Ind.Ct.App. 2014), the factual situation mirrored
that of Newman’s prior Appeal. In Kindred, the
appellant filed a late interlocutory appeal, and the
Court of Appeals dismissed the appeal on the basis
that it was untimely, ruling in pertinent part as
follows (emphasis added):
Because the Kindreds did not perfect an
interlocutory appeal within thirty days
of the trial court’s order entering the
preliminary injunction, their right to
appeal this order has been forfeited ....
[Footnote 3]: Our holding should not be
taken to mean that the Kindreds have
forever waived any issue with regard to
the trial court’s interlocutory order(s).
To the contrary, our supreme court has
held that “[a] claimed error in an
interlocutory order is not waived for
failure to take an interlocutory appeal
but may be raised on appeal from the
final judgment.” Bojrab v. Bojrab, 810
N.E.2d 1008,1014 (Ind. 2004) (citing
Georgos v. Jackson, 790 N.E.2d 448,452
(Ind. 2003)). Thus, the Kindreds may
attack the trial court’s interlocutory
orders on appeal from the final
judgment. See id. But we hold that they
have forfeited their right to an
interlocutory appeal by failing to timely
35

appeal the trial court’s entry of the
preliminary injunction.
Thus, denial of an interlocutory Appeal for
untimeliness does not establish res judicata upon
which to piggyback denial of a subsequent Appeal.
Unlike the court in Kindred, which dismissed
the untimely interlocutory appeal but properly
recognized the due process right of the appellant to
nonetheless litigate the appeal of the interlocutory
order at a later point in time via an appeal of the final
judgment, the Court of Appeals in Newman’s case
dismissed Newman’s untimely interlocutory prior
Appeal, wrongfully dismissing it "with prejudice," thus
unconstitutionally depriving Newman of his right to
appeal the interlocutory order in an Appeal of the
final judgment and piggybacking the wrongful
dismissal with prejudice to deny Newman’s
subsequent Appeal.
The Court of Appeals’ unconstitutional
deprivations of Newman’s due process rights through
its dismissal "with prejudice" of his 2017 Appeal was
exacerbated by its failure to state any purported legal
grounds for said dismissal "with prejudice."
"[Fjairness can rarely be obtained by secret, one-sided
determination of facts decisive of rights. Joint AntiFascist Committee v. McGrath, 341 U.S. 123,170
(1951)."
By denying Newman his instant Appeal
because his interlocutory 2017 Appeal had been
dismissed with prejudice, when the merits of the 2017
Appeal had never been considered, the Court of
36

Appeals and the Indiana Supreme Court acted to deny
Newman the due process owed to him by both the
Indiana Constitution and the U.S. Constitution.
The Indiana Constitution guarantees Newman
the “absolute right to one appeal.” Ind. Const, art.
VII, §6.
By dismissing Newman’s prior time-barred
interlocutory Appeal “with prejudice” and then
subsequently piggybacking said dismissal "with
prejudice" as the predicate for denying Newman an
Appeal on the merits in his subsequent Appeal, the
Court of Appeals violated Newman’s Constitutional
“absolute right to one appeal” under the Indiana
Constitution and Newman’s due process rights under
the Indiana and federal Constitutions.
In this respect, the Court of Appeals failed to
follow Indiana law with respect to the doctrine of res
judicata-, since there could not be the possibility of
"repetitive litigation of the same dispute" because
there has never been any litigation with respect to the
approved of his estate administrative expense
reimbursement/payment
claims,
pursuant
to
MicroVote General Corp. v. Ind. Election Comm’n,
924 N.E.2d 184,191 (Ind.Ct.App.2010):
The doctrine of res judicata bars
litigation of a claim after a final
judgment has been rendered in a prior
action involving the same claim between
the same parties or their privies. The
principle behind this doctrine, as well as
the doctrine of collateral estoppel, is the
37

prevention of repetitive litigation of the
same dispute.
In its order in Warren v. Indiana Telephone
Co., 217 Ind. 93, 26 N.E.2d 399 (Ind. 1940), the
Indiana Supreme Court recognized the fundamental
Constitutional dimensions of due process and the
need for uniformity in the applications of law as "the
keystone of our system of jurisprudence."
The Constitution of Indiana provides
that: ... "All courts shall be open; and
every man, for injury done to him in his
person, property, or reputation, shall
have remedy by due course of law.
Justice shall be administered freely, and
without purchase; completely, and
without denial; speedily, and without
delay" (Article 1, § 12); .... These
provisions of the Constitution are a part
of the fundamental law of the state,
declared by the people themselves acting
in their sovereign capacity.... As such
they are entitled to strict construction....
It has been said that the language of
each provision of the Constitution is to
be considered as though every word had
been hammered into place.
Uniformity in the interpretation and
application of the law is the keystone of our system of
jurisprudence.... Id., 217 Ind. 93 at 107-112, 26 N.E.2d
399 (Ind. 1940).

38

By failing to follow established law, as
determined in Bojrab v. Bojrab, 810 N.E.2d 1008,1014
(Ind. 2004), Georgos v. Jackson, 790 N.E.2d 448,452
(Ind. 2003), and Kindred v. Townsend, 4 N.E.3d 793
(Ind.Ct.App. 2014), and thereby denying Newman his
opportunity to be heard at the appellate level, both
the Indiana Court of Appeals and Supreme Court
violated Newman’s Constitutional due process rights
both to an Appeal and to a hearing on his
administrative expense motions.
Dismissal with prejudice is amongst the most
extreme consequences a court can impose. In the
instant matter, Newman, simply seeking his due
process rights to be heard, equal treatment under the
law, and equal access to the courts for redress of
grievances, reaped the extreme consequence of
dismissal of his case with prejudice, without legal
justification.
In truth, the extreme consequence imposed by
the Indiana Court of Appeals is a result of Lawrence
Newman’s
long-time
public
and
vociferous
whistleblowing about child abuse linked to the
Indianapolis Jewish Community Center ("JCC"),
where a number of convicted child molesters have
frequented for years and where the Indiana Court of
Appeals has repeatedly chosen, above thousands of
other venues in Indianapolis, to hold actual highlypublicized oral arguments during the time period
when Newman’s first Appeal was before the Court of
Appeals and also during the time period when
Newman’s second Appeal was before the Indiana
Supreme Court, which denied transfer from the Court
39

of Appeals less than one week after an appellate oral
argument was held on-site at the Indianapolis JCC.
Amongst the convicted child molesters
frequenting the Indianapolis JCC is Jared Fogle, the
prolific global predator who was spokesman for
Subway, as well as a violent predator who mutilated
the genital areas of a young victim’s dolls and then
set them on fire. The trial court judge in a civil case
involving said predator fined Newman’s wife
$60,000.00 for attempting to take the deposition of
the predator’s mother relative to other victims of her
son whom she had refused to report to authorities.
Said trial court judge, Steve David, was thereafter
appointed as an Indiana Supreme Court Justice,
where he currently serves and has twice ruled against
Newman in his Petitions To Transfer his Appeals in
the A1 Katz Estate proceeding. Likewise, in keeping
with the Indiana Court of Appeals imposition of
extreme consequences, the Indiana Supreme Court
ruled, without any of the required stated legal and
factual grounds, to assess Newman additional
appellate attorney fees in favor of its hearing officer,
Robert York, who had fired Newman when Newman
refused York’s ultimatum to be silent about child
abuse at the Indianapolis JCC or be fired. For years,
York has served as a hearing officer for the Indiana
Supreme Court on lawyer disciplinary cases and has
been paid scores of thousands of dollars of taxpayer
funds in said position.
In this respect, in Marshall v. Jerrico, 446 U.S.
238 (1980), this Court held that a disinterested
tribunal is a requisite of due process of law:
40

The Due Process Clause entitles a
person to an impartial and disinterested
tribunal in both civil and criminal cases.
This requirement of neutrality in
adjudicative proceedings safeguards the
two central concerns of procedural due
process, the prevention of unjustified or
mistaken
deprivations
and
the
promotion of participation and dialogue
by
affected
individuals
in
the
decisionmaking process. See Carey v.
Piphus, 435 U.S. 247, 259-262, 266-267
(1978). The neutrality requirement
helps to guarantee that life, liberty, or
property will not be taken on the basis of
an erroneous or distorted conception of
the facts or the law. See Mathews v.
Eldridge, 424 U.S. 319,344 (1976). At the
same time, it preserves both the
appearance and reality of fairness,
"generating the feeling, so important to a
popular government, that justice has
been
done,"
Joint
Anti-Fascist
Committee
v.
McGrath, 341 U.S.
(1951) (Frankfurter,
J.,
123,172,
concurring), by ensuring that no person
will be deprived of his interests in the
absence of a proceeding in which he may
present his case with assurance that the
arbiter is not predisposed to find against
him ....
In sum, Indiana’s appellate courts do not
appear to the "average person on the street" as
"disinterested tribunals" with their strong links to the
41

Indianapolis JCC and to Robert York, vocal opponents
against Newman for decades, thus raising issues
regarding the neutrality of Indiana’s appellate
tribunals toward Newman, particularly given the
nature of their repeated unconstitutional decisions
against him in the instant Appeal.
CONCLUSION
Lawrence Newman has been denied his basic
rights to due process in this case at all three levels of
the Indiana courts - trial court, Court of Appeals, and
Supreme Court. Due process of law has been a
bedrock Constitutional right of citizens since the Bill
of Rights was enacted well over 200 years ago, and
justice requires that this Court reverse the Indiana
courts, giving Newman his day in court in Indiana.
The Petition for Writ of Certiorari should be
granted to correct the grave deprivations of due
process of law Lawrence Newman has suffered at all
levels of the Indiana courts and their consequent
inhibitions of public trust in America’s judiciary.
Respectfully submitted,
Lawrence T. Newman
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

42

